4

IN THE SUPREME COURT OF THE UNITED STATES

JONATHAN PAGE,
Petitioner,
Case No:

vs.

MARK INCH, Scr y FDC,
Respondent,

PROOF OF SERVICE
Petitioner, confined in an institution, hereby certifies that the following Petition for Writ of
Certiorari and Appendix were deposited in the institution's internal mail system for mailing on
December

, 2020, to the Clerk of the Supreme Court of the United States, One First Street NE,

Washington, DC 20543. First-class postage is being prepaid either by me or by the institution on my
behalf. Further, the Petition and Appendix are also being mailed to Respondent, the Office of the
Attorney General, State of Florida, 444 Seabreeze Boulevard Suite 500, Daytona Beach, Florida 32118.
I declare under penalty of peijury that the foregoing is true and correct (See 28 U.S.C. ยง1746).

Petitioner:

DC# E39833
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Road
Crestview, Florida 32539-6708
Signed on

Z

z

